HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Empire HealthChoice, Inc.,"(A-05-03-00022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of Empire HealthChoice, Inc.," (A-05-03-00022)
May 8, 2003
Complete Text
of Report is available in PDF format (465 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent
of ineligible Medicare Skilled Nursing Facility (SNF) payments contained in
our database of payments made under the administrative responsibility of Empire
HealthChoice, Inc. (Empire).  Our review of the database estimated that
$9.7 million of ineligible SNF payments were made under the administrative
responsibility of Empire during calendar years 1997 through 2001.  The
overpayments occurred because of the absence of an automated cross-check, within
the Centers for Medicare and Medicaid Services Common Working File and the
Fiscal Intermediary’s claims processing systems, verifying that a three
consecutive day inpatient hospital stay occurred prior to SNF admission.